                                Closeout for M99020015
On @ February 1999, a program officer1informed us that a reviewe? had expressed
concern about the claim in a publication that the work had been supported by NSF funds.
The reviewer believed that the PI did not have support from NSF while the work was being
conducted, and the claim was false. However, the program officer told us that the PI had an
earlier NSF award and that she had received notice h r n the PI that the work had been
submitted to a journal3 and that the PI planned to acknowledge partial NSF support.4 The
program officer informed us of this matter because the reviewer had ostensibly made an
allegation of a false claim.

Although we have pursued false publication claims as issues of misconduct in science, the
program manager and we agreed that this was clearly a management issue. We
recommended that the program officer tell the reviewer about the information the PI had
provided. The program officer did so. This matter is closed.


Cc: Integrity, IG
